     EXAMINATION OF THE
   DEPARTMENT OF JUSTICE
FISCAL YEAR 2011 COMPLIANCE
WITH THE IMPROPER PAYMENTS
  INFORMATION ACT OF 2002
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

             Report 12-19
              March 2012
    EXAMINATION OF THE DEPARTMENT OF JUSTICE
      FISCAL YEAR 2011 COMPLIANCE WITH THE
   IMPROPER PAYMENTS INFORMATION ACT OF 2002


                        EXECUTIVE SUMMARY

      The Office of the Inspector General (OIG) examined the
U.S. Department of Justice’s (Department) compliance with Office of
Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, and OMB Circular
A-136, Financial Reporting Requirements, for the fiscal year ended
September 30, 2011. This examination is required by the Improper
Payments Information Act of 2002, as amended by the Improper Payments
Elimination and Recovery Act of 2010.

Office of the Inspector General Examination Approach

      The OIG conducted the examination and prepared the report in
accordance with attestation standards established by the American Institute
of Certified Public Accountants and those contained in Government Auditing
Standards, issued by the Comptroller General of the United States. In
determining the level of assurance, we considered the requirements outlined
in OMB Circular A-123, Appendix C, and OMB Circular A-136, the
expectations of the users of the report, and any potential risks associated
with performing the engagement. We performed a compliance examination
due to the higher level of assurance it provides, the result of which is the
expression of an opinion.

     The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the improper payments reporting.
However, the amounts included for the OIG are not material to the
Department’s improper payments reporting, and the OIG is organizationally
independent with respect to all other aspects of the Department’s activities.

Results in Brief

      The OIG conducted the examination to determine compliance with the
requirements, as set forth in OMB Circular A-123, Appendix C, and
OMB Circular A-136. The examination was comprised of the OIG gaining an
understanding of the Department and component level controls through



                                    -i–
inquiry procedures, a review of documentation supporting the information
published in the Department’s Performance and Accountability Report (PAR),
as well as a re-performance of calculations computed by the Department.

Conclusion and Recommendations

       We found that the Department complied, in all material respects, with
the Improper Payments Information Act of 2002, as amended, for the fiscal
year ended September 30, 2011. While we did not identify any significant
deficiencies or material weaknesses, we did identify two matters to consider
for future PAR reporting, presented as comments in Appendix I. These
comments relate to: (1) ensuring all OMB-required fields pertaining to
current year payment recapture activity are presented in future submissions,
and (2) expanding the discussion of questioned costs as they relate to the
identification and recapture of improper payments. These comments do not
materially affect the report and have been presented along with four
recommendations to enhance future reporting of improper payments and
recoveries. These recommendations include that the Department perform a
quality control review of improper payment information presented in the PAR
to ensure all of the reporting requirements are appropriately addressed and
that the Department include a more detailed discussion of unresolved
questioned costs.




                                   - ii –
    EXAMINATION OF THE DEPARTMENT OF JUSTICE
      FISCAL YEAR 2011 COMPLIANCE WITH THE
   IMPROPER PAYMENTS INFORMATION ACT OF 2002


                                TABLE OF CONTENTS


                                                                                            PAGE



BACKGROUND ...................................................................................... 1

INDEPENDENT REPORT ON THE DEPARTMENT OF JUSTICE
    FISCAL YEAR 2011 COMPLIANCE WITH THE
    IMPROPER PAYMENTS INFORMATION ACT OF 2002 ........................... 5

APPENDIX I: COMMENTS AND RECOMMENDATIONS ................................ 7

APPENDIX II: IMPROPER PAYMENTS REPORTING IN THE
    FISCAL YEAR 2011 DEPARTMENT OF JUSTICE PERFORMANCE AND
    ACCOUNTABILITY REPORT ........................................................... 17
This page intentionally left blank.
Background

      On July 22, 2010, the President of the United States signed into law
the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
which amended the Improper Payments Information Act of 2002 (IPIA). 1
IPERA expanded the scope of the IPIA beyond commercial payments to
include more payment types, such as grants and cooperative agreements,
and benefit and assistance payments. In fiscal years 2011 and 2010, federal
agencies reported $115 billion and $125 billion in estimated improper
payments, respectively. IPERA requires agencies, including the Department
of Justice (Department), to annually report information on improper
payments to the President and Congress through their Performance and
Accountability Report (PAR).

      Agencies are required to assess every federal program and dollar
disbursed for improper payment risk, measure the accuracy of payments
annually, and initiate program improvements to ensure payment errors are
reduced. Specifically, they are required to review all programs and activities
and identify those that are susceptible to significant erroneous payments.
For those programs and activities that are deemed susceptible to significant
erroneous payments, the agency must obtain a statistically valid estimate of
the annual amount of improper payments and thereafter implement a plan
to reduce erroneous payments. The agency must annually report and note
in the PAR the progress of reducing estimates of improper payments in its
programs and activities. In addition, IPERA requires agencies to conduct
payment recapture audits for each program and activity that expends
$1 million or more annually, if conducting such audits is cost-effective.
Agencies must have a cost-effective program of internal controls to prevent,
detect, and recover overpayments resulting from payment errors. All
agencies are required to establish annual targets for their payment
recapture audit programs that will drive their annual performance.

      Each fiscal year, the Office of the Inspector General (OIG) of each
agency is responsible for determining whether the agency is in compliance
with the improper payment reporting requirements, as set forth in the Office
of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments; and OMB
Circular A-136, Financial Reporting Requirements. Once it has completed its
assessment, the OIG is required to complete its review within 120 days after

      1
        Unless otherwise noted, the usage of the term “IPIA” will imply “IPIA, as amended
by IPERA.”




                                          -1-
issuance of the PAR, on its determination to the head of the agency, the
Committee on Homeland Security and Governmental Affairs of the
U.S. Senate, the Committee on Oversight and Government Reform of the
U.S. House of Representatives, the Comptroller General, and the Controller
of the Office of Management and Budget.

       The OIG’s responsibility, as described in OMB Circular A-123,
Appendix C, and as related to a compliance examination, is to determine an
agency’s compliance with IPIA. Compliance with IPIA means that the
Department has: (1) published a PAR for the most recent fiscal year and
posted that report and any accompanying materials required by OMB on the
Department’s website; (2) conducted a program-specific risk assessment for
each program or activity that conforms with IPERA (if required);
(3) published improper payment estimates for all programs and activities
identified as susceptible to significant improper payments under its risk
assessment (if required); (4) published programmatic corrective action plans
in the PAR (if required); (5) published, and has met, annual reduction
targets for each program assessed to be at risk and measured for improper
payments (if required); (6) reported a gross improper payment rate of less
than 10 percent for each program and activity for which an improper
payment estimate was obtained and published in the PAR (if required); and
(7) reported information on its efforts to recapture improper payments. If
the OIG identifies any non-compliance with the items noted above, these
issues are to be documented in the Independent Report on the Department
of Justice Fiscal Year 2011 Compliance with the Improper Payments
Information Act of 2002 and the Department would be deemed to be not
compliant with IPIA.

      Additionally, OMB Circular A-123, Appendix C, states that the OIG
“should also evaluate the accuracy and completeness of agency reporting,
and evaluate agency performance in reducing and recapturing improper
payments.” The Circular goes on to say, “As part of its report, the agency
Inspector General should include its evaluation of agency efforts to prevent
and reduce improper payments, and any recommendations for actions to
further improve the agency's or program's performance in reducing improper
payments.” We considered these additional procedures while performing the
examination. The two reporting matters that were identified from these
additional procedures, however, did not affect the determination of
compliance in the Independent Report on the Department of Justice Fiscal
Year 2011 Compliance with the Improper Payments Information Act of 2002,
but were documented in Appendix I: Comments and Recommendations.

      The Department reviewed the requirements of IPIA, as well as OMB
Circular A-123, Appendix C, and OMB Circular A-136, to collect and publish



                                   -2-
information on the Department’s improper payments as of September 30,
2011 in its PAR (item 1 above). The Department conducted a risk
assessment (item 2 above) of its five self-identified programs to determine if
any were deemed to be susceptible to significant improper payments,
defined as gross annual improper payments in the program exceeding the
OMB thresholds of both 2.5 percent of program outlays and $10 million, or
$100 million. Based on the results of its risk assessment, the Department
determined that it did not have any programs that were susceptible to
significant improper payments as of September 30, 2011. As a result, the
Department was not required to include the following information in its PAR:
improper payment estimates, programmatic corrective actions plans, annual
reduction targets for programs at risk, and a gross improper payment rate
for each program and activity at risk (items 3 through 6 above). The
Department reported on its efforts to recapture improper payments in the
PAR (item 7 above).




                                    -3-
This page intentionally left blank.




               -4-
                                          U.S. Department of Justice

                                          Office of the Inspector General



                                          Washington, D.C. 20530



        Independent Report on the Department of Justice
             Fiscal Year 2011 Compliance with the
          Improper Payments Information Act of 2002



United States Attorney General
U.S. Department of Justice

       We have examined the Department of Justice’s (Department)
compliance with Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments; and OMB
Circular A-136, Financial Reporting Requirements, pursuant to the Improper
Payments Information Act of 2002, as amended by the Improper Payments
Elimination and Recovery Act of 2010, for the fiscal year ended
September 30, 2011. Management is responsible for the Department's
compliance with those requirements. Our responsibility is to express an
opinion on the Department's compliance based on our examination.

      Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public
Accountants and standards applicable to attestations contained in
Government Auditing Standards, issued by the Comptroller General of the
United States and, accordingly, included examining, on a test basis,
evidence about the Department's compliance with those requirements and
performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis
for our opinion. Our examination does not provide a legal determination on
the Department's compliance with specified requirements.

      In our opinion, the Department complied, in all material respects, with
the aforementioned requirements for the fiscal year ended September 30,
2011.




                                    -5-
Independent Report on the Department of Justice Fiscal Year 2011 Compliance
with the Improper Payments Information Act of 2002
Page 2



      In planning and performing our examination of the Department’s
compliance with OMB requirements, we considered the Department's
internal control over compliance (internal control) as a basis for designing
our examination procedures for the purpose of expressing our opinion, but
not for the purpose of expressing an opinion on the effectiveness of the
Department's internal control. Accordingly, we do not express an opinion on
the effectiveness of the Department's internal control.

      A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control that results in more than a
remote likelihood that a material misstatement of the subject matter will not
be prevented or detected and corrected on a timely basis.

       Our consideration of internal control was for the limited purpose
described in the fourth paragraph and was not designed to identify all
deficiencies in internal control that might be deficiencies, significant
deficiencies, or material weaknesses. We did not identify any deficiencies in
internal control that we consider to be material weaknesses, as defined
above.

      During our examination, we noted two reporting matters that resulted
in four recommendations for your consideration in Appendix I. These
comments and recommendations, which have been discussed with the
appropriate members of the Department’s management, are intended to
enhance future reporting of improper payments and recoveries.




Mark L. Hayes, CPA, CFE
Director, Financial Statement Audit Office
Office of the Inspector General
U.S. Department of Justice

March 8, 2012




                                         -6-
                                                               APPENDIX I


              COMMENTS AND RECOMMENDATIONS

       The enactment of the Improper Payments Elimination and Recovery
Act of 2010 (IPERA), which amended the Improper Payments Information
Act of 2002 (IPIA), requires the Department of Justice to identify and report
improper payments in its Performance and Accountability Report (PAR) and
the Office of the Inspector General (OIG) to review agency reporting in the
PAR to determine compliance with the IPIA. The seven requirements
outlined in the IPIA are codified in Office of Management and Budget (OMB)
Circular A-123, Management’s Responsibility for Internal Control, Appendix
C, Requirements for Effective Measurement and Remediation of Improper
Payments, and OMB Circular A-136, Financial Reporting Requirements. OMB
suggested additional procedures the OIG should consider performing during
its review, including evaluating the accuracy and completeness of agency
reporting and the agency’s efforts in preventing and reducing improper
payments, and providing recommendations for improvements.

       We conducted an examination of the Department’s compliance with
the IPIA. We determined the Department complied, in all material respects,
with the IPIA. While we did not identify any significant deficiencies or
material weaknesses, we noted two matters for the Department to consider
for future reporting, presented below as comments, with four
recommendations. We have discussed these matters with the appropriate
members of the Department and their response is included after each
recommendation.




                                    -7-
Comment Number 1: Ensure all OMB-required Fields Pertaining to
Current Year Payment Recapture Activity are Presented in Future
Submissions of the Department of Justice’s Performance and
Accountability Report

      During our examination of the Department’s fiscal year (FY) 2011 PAR
we noted that, while the Department is materially in compliance with the
presentation requirements, some required, or clarifying, information was not
included in certain tables. For instance:

   •   OMB Circular A-136, Table 2, Payment Recapture Audit Reporting. 2
       This table should be presented to illustrate the Department’s payment
       recapture audit efforts. According to the Director, Justice Management
       Division Internal Review & Evaluation Office, to more clearly present
       the information, the Department chose to split the information into
       three tables rather than one: PAR Table 1A, Payment Recapture Audit
       Reporting Scope; PAR Table 1B, Cumulative Payment Recapture Audit
       Reporting; and PAR Table 1C, Payment Recapture Audit Reporting by
       Current Year and Previous Years. The OIG performed a crosswalk of
       the required columns from OMB Circular A-136, Table 2 to the three
       tables in the PAR. The OIG noted the following columns were not
       presented by the Department in any of the three PAR tables:
            •   “Amount Outstanding (CY)” 3, and
            •   “% of Amount Outstanding out of Amount Identified (CY)”.

   •   OMB Circular A-136, Table 3, Payment Recapture Audit Targets. This
       table should provide the “CY Amount Identified”, “CY Amount
       Recovered”, and “CY Recovery Rate”, alongside the “Recovery Rate
       Targets” for the next 3 years. We noted the purpose of the table is to
       document the Department's annual recovery rate per payment type.
       However, in the accompanying narrative, the Department stated that it
       “achieved an overall improper payment recovery rate of 86 percent as
       of the end of FY 2011”, which represents the rate for the cumulative
       period of FYs 2004 through 2011, and that it was “1 percent better
       than the OMB target rate of 85 percent that agencies are to strive to


       2
           Table 1, Improper Payment Reduction Outlook, does not apply to the Department,
as this is only required for an agency that has programs or activities that are susceptible to
significant improper payments. As determined through the Department’s risk assessment,
no programs or activities met the OMB thresholds to be considered susceptible to significant
improper payments.
       3
           CY refers to current year.



                                            -8-
      achieve in FY 2013.” Doing so may allow the reader to infer that there
      is an overall cumulative target recovery rate, which is not the case.

      In addition, the following comment was made by OMB as part of its
      10-day draft PAR review and provided to the Department: "As
      discussed in OMB A-136, this table should be based on annual rates,
      as opposed to the cumulative rate; please revise this table so that it
      includes CY amount identified, CY amount received, and CY recovery
      rate (feel free to still include the cumulative information, but
      please keep in mind that the annual recovery rate targets
      should have the CY rate as the baseline) [emphasis added]."

      We referred to the two OMB Circulars that relate to the identification
and reporting of improper payments in support of this matter. OMB
Circular A-136, Federal Financial Requirements, Section II.5.8, requires the
presentation of six tables to discern information regarding improper payment
estimates and the recapture of improper payments, as applicable:

  •   Table   1,   Improper Payment Reduction Outlook
  •   Table   2,   Payment Recapture Audit Reporting
  •   Table   3,   Payment Recapture Audit Targets
  •   Table   4,   Aging of Outstanding Overpayments
  •   Table   5,   Disposition of Recaptured Funds
  •   Table   6,   Overpayments Recaptured Outside of Payment Recapture
                   Audits

       Moreover, OMB Circular A-123, Management’s Responsibility for
Internal Control, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, Part I.B.3, states: "An agency shall set
different payment recapture targets for the different types of payments it
makes (for example, a given agency might set a target that encompasses all
contract payments lumped together, and another target that encompasses
all grants payments lumped together). Agencies have the discretion to set
their own payment recapture targets for review and approval by OMB, but
agencies shall strive to achieve annual recapture targets of at least 85
percent within three years (with the first reporting year being FY 2011,
the second FY 2012, and the third FY 2013) [emphasis added]."

      Through discussions with the Department, we determined the following
are the causes to the conditions previously listed:

  •   The Department stated it did not include the two columns:
      (1) “Amount Outstanding (CY)” and (2) “% of Amount Outstanding out
      of Amount Identified (CY)” because the information would be
      misleading to the reader.




                                      -9-
  •   In regards to the Department emphasizing the cumulative recovery
      rate, the Department stated that this is due to its efforts to present
      what it considered to be the more informative data.

      No material misstatement occurred as a result of the errors noted.
However, we believe that the reader may be misled to believe that the
Department’s recovery rate for each payment type was already meeting the
85 percent target, as the cumulative rate was utilized rather than the annual
rate required by OMB.

Recommendations:

      We recommend that the Department:

  1. Perform a quality control review of the improper payment information
     included in the PAR to ensure that all requirements of
     OMB Circular A-136 and OMB Circular A-123, Appendix C, are being
     appropriately addressed.

      MANAGEMENT’S RESPONSE:

      The Department concurs with the recommendation. In future
      submissions, the Department will address all OMB reporting
      requirements for the PAR unless the Department receives OMB
      approval to not include certain information. Department management
      was fully aware of the FY 2011 reporting requirements and made the
      decision to not present certain current year recovery information in
      order to avoid presenting incomplete and misleading information.

      Management believes a primary objective of financial reporting is to
      provide information that is both accurate and meaningful. In
      determining which information to include in a report, professional
      judgment must be exercised to provide the reader with the most
      complete data.

      In the PAR table presenting recovery rates and targets, the
      Department presented recovery rate information for both the current
      year and cumulative period of FYs 2004 through 2011. In the
      summary paragraph accompanying the table, the Department
      emphasized the overall recovery rate for the cumulative period
      because this information presented the most accurate and complete
      assessment of how well the Department is recovering all amounts
      owed to the Department. A good analogy is the reporting of Accounts
      Receivables collection activity; i.e., the Department would never
      recommend that a Departmental component disregard their aged



                                    - 10 -
Accounts Receivables over one year when measuring the effectiveness
of collection activity, which is why the Department does not disregard
“aged” improper payments when measuring the effectiveness of its
recovery activity. A priority for the Department’s payment recapture
audit program has been and continues to be recovering all improper
payments identified for recapture, not just those identified for
recapture in the current year.




                             - 11 -
Comment Number 2: Discussion of Questioned Costs Should be
Expanded to Provide Greater Transparency of the Recapture of
Improper Payments


      During our examination of the Department’s FY 2011 PAR, we noted
that, while the Department is materially in compliance with the
requirements, additional information could be included to provide greater
transparency regarding the methodology utilized by the Department to
determine its improper payments and recapture information.

      With the implementation of IPERA, the scope of improper payments
expanded beyond commercial payments to include grants and cooperative
agreements, and benefit and assistance payments. Moreover, OMB has
determined questioned costs are now considered improper payments.
According to the Inspector General Act of 1978, a questioned cost is defined
as a cost that is questioned because of:

      (1) An alleged violation of a provision of a law, regulation, contract,
      grant, cooperative agreement, or other agreement or document
      governing the expenditure of funds;

      (2) A finding that, at the time of the audit, such cost is not supported
      by adequate documentation; or

      (3) A finding that the expenditure of funds for the intended purpose is
      unnecessary or unreasonable.

      Questioned costs relate primarily to the grants process where
additional support is requested to validate transactions. However, the
validation process between the Department and the grantee can take
months, if not years, to resolve questioned costs. The Department's position
on questioned costs is that the funds are not available for recovery until they
are “sustained”, that is, determined that the payment was indeed erroneous.

      We did note minimal discussion of questioned costs in the
Department's PAR, Item V., Recapture of Improper Payment Reporting;
however, we believe that this can be expanded to include the questioned
costs resolution process noting when these costs are available for recapture.

       According to OMB Circular A-136, Section II.5.8, Item 1, Risk
Assessment: “Briefly describe the risk assessment(s) performed (including
the risk factors examined, if appropriate) subsequent to completing a full
program inventory. List the risk-susceptible programs (i.e., programs that
have a significant risk of improper payments based on OMB guidance




                                     - 12 -
thresholds) identified by the agency risk assessments. Include any
programs previously identified in the former Section 57 of OMB Circular
A-11, Preparation, Submission and Execution of the Budget [sic]. Highlight
any changes to the risk assessment methodology or results that
occurred since the last report” [emphasis added].

      Additionally, OMB Circular A-123, Appendix C, Part I.A.2, defines an
improper payment as the following: “An improper payment is any payment
that should not have been made or that was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable
requirements. Incorrect amounts are overpayments or underpayments that
are made to eligible recipients (including inappropriate denials of payment or
service, any payment that does not account for credit for applicable
discounts, payments that are for the incorrect amount, and duplicate
payments). An improper payment also includes any payment that was made
to an ineligible recipient or for an ineligible good or service, or payments for
goods or services not received (except for such payment authorized by law).
In addition, when an agency’s review is unable to discern whether a
payment was proper as a result of insufficient or lack of
documentation, this payment must also be considered an improper
payment” [emphasis added].

      Furthermore, OMB Circular A-123, Appendix C, Part I.A.9, states:
“However, if a $100 payment was due and made, but there is insufficient
documentation to support the appropriateness of the payment or if a
duplicate payment was made, then the amount applied to the annual
estimated improper payment amount should be $100.”

      OMB does not provide clear instructions on the reporting of improper
payments aside from those programs and activities deemed susceptible.
Notwithstanding the above, the Department adhered to the presentation
requirements set forth in the OMB guidance.

       None of the Department’s five programs were deemed susceptible to
significant improper payments. However, the spirit of IPERA is to provide a
strategy to reduce improper payments through boosting transparency,
holding agencies accountable, and creating strong incentives for compliance.

      The inclusion of the questioned cost recapture methodology will clarify
for the reader the total amount of the questioned costs and how they are
incorporated in the Department’s determination of improper payments.
Without a discussion on the resolution process and the length of time it
takes to sustain questioned costs, the reader could infer that all questioned
costs have been resolved and, if appropriate, identified for recapture.
However, the Department had a significant amount of questioned costs,
approximately $57.4 million as of the end of FY 2011, for audit reports with



                                     - 13 -
open recommendations. 4 Due to the limited discussion of questioned costs
in the PAR, the reader may assume that if a payment was questioned, the
Department would immediately begin seeking recapture, which is typical of
all other improper payments other than grants.

Recommendations:

      We recommend that the Department:

   2. Continue to seek clarification from OMB on what information would
      provide the most value and greatest transparency with respect to
      questioned costs.

      MANAGEMENT’S RESPONSE:

      The Department concurs with the recommendation. Management will
      continue its ongoing communications with OMB and will include this
      topic as a discussion item.

      Management believes the current OMB guidance is sufficient and that
      any clarifications should be formalized by OMB though additional or
      revised guidance. As with any guidance, there will be varying
      interpretations based on professional judgment.

   3. Expand the discussion in the PAR of Item V Recapture of Improper
      Payment Reporting, noting questioned costs identified for recapture
      and the amount of unresolved questioned costs as of the fiscal year
      end, to allow for full transparency of improper payments. The
      presentation of such information can be in various forms, such as a
      narrative format or a footnote.

      MANAGEMENT’S RESPONSE:

      The Department concurs with the recommendation. The Department
      will review its current presentation and comply with any additional or
      revised guidance issued by OMB related to questioned costs.




      4
         The Attorney General’s Semi-Annual Management Report to Congress (April 1,
2011 to September 30, 2011), p.3, available on the Department of Justice’s website,
www.justice.gov.



                                        - 14 -
4. Maintain an aging chart, or similar document, as shown in the example
   below, in support of the Department’s risk assessment. The document
   should illustrate the amount of questioned costs (by fiscal year),
   amount resolved, and the amount that remains open.

                               Resolved/
   Questioned      Total       Identified            Open/
    Costs by    Questioned        for              Unresolved
   Fiscal Year     Costs       Recapture
   FY 2011               $30             $7                   $23
   FY 2010               $22            $15                    $7
   FY 2009               $14            $11                    $3
       Total Questioned Costs that Remain
                          Open/Unresolved                     $33

  MANAGEMENT’S RESPONSE:

  The Department concurs with the recommendation. The Department
  will include this or similar information as part of the working papers
  created to support risk assessments that are performed.




                                - 15 -
This page intentionally left blank.




              - 16 -
                                                                                                       APPENDIX II

                        IMPROPER PAYMENTS REPORTING IN THE
                      FISCAL YEAR 2011 DEPARTMENT OF JUSTICE
                     PERFORMANCE AND ACCOUNTABILITY REPORT

The Improper Payments Information Act of 2002 (IPIA), as amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), requires agencies to annually report information on
improper payments to the President and Congress through their annual Performance and Accountability
Report. In accordance with that requirement and the implementing guidance in OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments, and
OMB Circular A-136, Financial Reporting Requirements, the Department provides the following
improper payments reporting details.

Item I. Risk Assessment. Briefly describe the risk assessment performed (including the risk
factors examined, if appropriate) subsequent to completing a full program inventory. List the risk-
susceptible programs (i.e., programs that have a significant risk of improper payments based on
OMB guidance thresholds) identified by the agency risk assessment. Highlight any changes to
the risk assessment methodology or results that occurred since the FY 2010 IPIA report.

In accordance with the IPIA, as amended by the IPERA, and the April 2011 OMB implementing
guidance, OMB Circular A-123, Appendix C, the Department assessed its programs and activities for
susceptibility to significant improper payments. In FY 2011, the Department updated its top-down
approach for assessing the risk of significant improper payments Department-wide to allow for the
analysis and reporting of results by the Department’s five mission-aligned programs – Law Enforcement;
Litigation; Prison and Detention; State, Local, Tribal, and Other Assistance; and Administrative,
Technology, and Other. The updated approach promoted consistency across the Department in
implementing the expanded requirements of the IPERA. In conjunction with implementing the updated
approach, the Department developed and disseminated guidance for conducting the required risk
assessment, along with a risk assessment survey instrument for Departmental component use in
examining disbursement activities against nine risk factors, such as payment volume and process
complexity. 5 The instrument covered commercial payments, grants and cooperative agreements, benefit
and assistance payments, payments to State and local governments, and custodial payments.

The Department’s risk assessment methodology for FY 2011 did not change significantly from FY 2010;
i.e., for FY 2011, the methodology again included assessing risk against various risk factors and for
various payment types. The primary differences for FY 2011 were that the Department’s updated risk
assessment methodology included the additional types of payments required by the IPERA and OMB
implementing guidance, as well as the reporting of information by the Department’s five mission-aligned
programs.

The results of the FY 2011 risk assessment did not differ from FY 2010; i.e., the Department concluded
based on the results of the Department-wide risk assessment for the period ending September 30, 2011,
that there were no programs susceptible to significant improper payments, i.e., improper payments
exceeding the OMB thresholds of both 2.5 percent of program outlays and $10 million, or $100 million.



5
 The nine risk factors examined during the risk assessment were Policies and Procedures; Results of OMB Circular A-123
Assessment, OIG Audits/Reviews, and other External Audits/Reviews; Corrective Actions; Results of Monitoring Activities;
Results of Recapture Audit Activities; Process Complexities; Volume and Dollar Amount of Payments; Control Risk; and
Capability of Personnel.




                                                         - 17 -
Item II. Statistical Sampling. Any agency that has programs or activities that are susceptible to
significant improper payments shall briefly describe the statistical sampling process conducted to
estimate the improper payment rate for each program identified with a significant risk of improper
payments. Highlight any changes to the statistical sampling process that have occurred since the
FY 2010 IPIA report.

Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there were no
programs susceptible to significant improper payments. This remains unchanged from FY 2010.

Item III. Corrective Actions. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the corrective action plans for:

   A. Reducing the estimated improper payment rate and amount for each type of root cause
      identified. Agencies shall report root cause information (including error rate and error
      amount) based on the following three categories: Administrative and Documentation
      errors, Authentication and Medical Necessity errors, and Verification errors. This
      discussion must include the corrective actions, planned or taken, most likely to
      significantly reduce future improper payments due to each type of error an agency
      identifies, the planned or actual completion date of these actions, and the results of the
      actions taken to address these root causes. If efforts are ongoing, it is appropriate to
      include that information in this section and to highlight current efforts, including key
      milestones. Agencies may also report root cause information based on additional
      categories, or sub-categories, of the three categories listed above, if available.

       Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments.

   B. Grant-making agencies with risk-susceptible grant programs shall briefly discuss what the
      agency has accomplished in the area of funds stewardship past the primary recipient.
      Discussion shall include the status of projects and results of any reviews.

       Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments, to include grant programs.

Item IV. Improper Payments Reporting.

   A. Any agency that has programs or activities that are susceptible to significant improper
      payments must provide the following information in a table:
         - all risk-susceptible programs must be listed whether or not an error measurement
             is being reported;
         - where no measurement is provided, the agency should indicate the date by which
             a measurement is expected;
         - if the Current Year (CY) is the baseline measurement year, and there is no Previous
             Year (PY) information to report, indicate by either “Note” or “N/A” in the PY
             column;
         - if any of the dollar amounts included in the estimate correspond to newly
             established measurement components in addition to previously established
             measurement components, separate the two amounts to the extent possible;
         - agencies are expected to report on CY activity or, if not feasible, PY activity is
             acceptable if approved by OMB. Agencies should include future year outlay and
             improper payment estimates for CY+1, +2, and +3 (future year outlay estimates
             should match the outlay estimates for those years as reported in the most recent
             President’s Budget).

       Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments.


                                               - 18 -
   B. Agencies should include the gross estimate of the annual amount of improper payments
      (i.e., overpayments plus underpayments) and should list the total overpayments and
      underpayments that make up the current year amount. In addition, agencies are also
      allowed to calculate and report a second estimate that is a net total of both overpayments
      and underpayments (i.e., overpayments minus underpayments). The net estimate is an
      additional option only and cannot be used as a substitute for the gross estimate.

       Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments.

Item V. Recapture of Improper Payments Reporting.

   A. An agency shall discuss payment recapture audit (or recovery auditing) efforts, if
      applicable. The discussion should describe the agency’s payment recapture audit
      program, the actions and methods used by the agency to recoup overpayments, a
      justification of any overpayments that have been determined not to be collectable, and any
      conditions giving rise to improper payments and how those conditions are being resolved
      (e.g., the business process changes and internal controls instituted and/or strengthened
      to prevent further occurrences). If the agency has excluded any programs or activities
      from review under its payment recapture audit program (including any programs or
      activities where the agency has determined a payment recapture audit program is not
      cost-effective), the agency should list those programs and activities excluded from the
      review, as well as the justification for doing so. Include in the discussion the dollar
      amount of cumulative recoveries collected beginning with FY 2004.

       The Department’s payment recapture audit program is part of its overall program of internal
       control over disbursements. The program includes establishing and assessing internal controls to
       prevent improper payments, reviewing disbursements to identify improper payments, assessing
       root causes of improper payments, developing corrective action plans, and tracking the recovery
       of improper payments and disposition of recovered funds. In FY 2011, the Department updated
       its top-down approach for tracking and reporting the results of recovery auditing activities to
       promote consistency across the Department in implementing the expanded requirements of the
       IPERA. In conjunction with implementing the updated approach, the Department developed and
       disseminated a template to assist components in analyzing root causes of improper payments and
       tracking the recovery of such payments and disposition of recovered funds.

       The root causes for overpayments other than for grants largely fell within the OMB-defined error
       category of Documentation and Administrative, as most errors were overpayments resulting from
       duplicate payments or data entry errors. Departmental components have implemented corrective
       actions to address specific areas where improvements could be made. For example, to reduce
       duplicate payments, components within the Offices, Boards, and Divisions have increased the use
       of analytics by instituting searches of vendor invoice records prior to processing disbursements.
       To reduce data entry errors, the Federal Bureau of Investigation (FBI) increased its use of
       electronic billing and consolidation of invoices.

       The root causes for grant overpayments also largely fell within the Documentation and
       Administrative category, as most involved questioned costs, e.g., expenditures that did not have
       sufficient documentation to support the cost. To reduce the risk of these types of overpayments,
       the Department’s granting components expanded training and communications informing
       grantees of their responsibilities related to receiving Federal awards.




                                               - 19 -
   Departmental components have also taken actions to facilitate the recovery of improper
   payments. For example, the FBI produces an accounts receivable report to track the age and
   collection efforts for all uncollected improper payments. The Office of Justice Programs’ (OJP)
   actions include generating a report at least quarterly that identifies potential duplicate
   disbursements, researching the questionable disbursements, resolving issues to identify payments
   that were proper, and initiating recovery actions for payments deemed to be improper. The
   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) issues demand letters to debtors
   notifying them of the status of the debt, the date payment is due, where to send payment, and the
   collection actions the ATF can pursue to recover the debt.
   The Department excluded employee disbursements and intra-governmental payments from the
   scope of its payment recapture audit program in accordance with the IPERA and OMB
   implementing guidance. The Department also excluded payments to confidential informants
   because of its responsibility to protect sensitive law enforcement information. Lastly, the
   Department excluded payments at Drug Enforcement Administration (DEA) foreign offices,
   because the DEA obtains the services of the Department of State for certifying and disbursing
   payments on behalf of the DEA at foreign offices.
   In accordance with the IPERA and OMB implementing guidance, the Department measured
   payment recapture performance under the expanded scope of its payment recapture audit
   program. Based on performance for the period ending September 30, 2011, the Department
   achieved an overall improper payment recovery rate of 86 percent – 1 percent better than the
   OMB target rate of 85 percent that agencies are to strive to achieve by FY 2013. There were no
   FY 2011 overpayments that were determined not to be collectable. Table 1B provided later in
   this section provides additional detail on the approximate $33.0 million in improper payments
   identified in FYs 2004 through 2011 and the approximate $28.4 million of recovered funds.
B. Complete the tables below (if any of this information is not available, indicate by either
   “Note” or “N/A” in the relevant column or cell):
   Note: To allow information to be easily viewable, the Department reformatted the table in
   OMB Circular A-136 into three separate tables. Table 1A provides information on the total
   amount of disbursements subject to review in FY 2011, as well as the total amount reviewed
   under the Department’s payment recapture audit program. As shown in the table, the Department
   reviewed 100 percent of its FY 2011 disbursements, except for the payments excluded from
   review as discussed in Item V.A.
                                                Table 1A
                                 Payment Recapture Audit Reporting Scope
                                                                            Amount
                                                                          Subject to      Actual Amount
                                            Type of Payment               Review for       Reviewed and
      DOJ Mission-Aligned           (includes only the types made per       FY 2011         Reported in      Percent
              Program                           program)                   Reporting          FY 2011       Reviewed
     Administrative,              Commercial                               $757,647,071      $757,647,071     100%
     Technology, and Other        Custodial                                $516,597,093      $516,597,093     100%
     Litigation                   Commercial                               $689,725,587      $689,725,587     100%
     Law Enforcement              Commercial                             $4,422,205,055    $4,422,205,055     100%
                                  State and Local Governments            $1,116,361,158    $1,116,361,158     100%
     State, Local, Tribal, and    Benefits and Assistance                  $130,341,406      $130,341,406     100%
     Other Assistance             Commercial                               $106,937,122      $106,937,122     100%
                                  Grants and Cooperative Agreements      $3,808,605,661    $3,808,605,661     100%
     Prisons and Detention        Commercial                            $ 3,312,945,299   $ 3,312,945,299     100%
                                  State and Local Governments             $ 754,136,121     $ 754,136,121     100%
     Total                                                              $15,615,501,573   $15,615,501,573     100%




                                                     - 20 -
         Table 1B provides the cumulative results of payment recapture audit activities for the eight-year period of FYs 2004 through 2011. As shown in
         the table, as of the end of FY 2011, the Department had recovered 86 percent of the improper payments identified for recovery. The Department
         reported a cumulative recovery rate of 94 percent in its FY 2010 PAR. The decreased rate for FY 2011 is attributed to the increased scope of
         payment recapture audit reporting required under the IPERA; i.e., in FY 2010, agencies were required to report recovery rates for commercial
         payments only; whereas, in FY 2011, agencies are required to report on additional types of payments, such as payments to State and local
         governments, benefit payments, and grants. As shown in the table, the recovery rate for grants was approximately 58 percent, while the recovery
         rate for all other types of payments ranged from 91 percent to 100 percent. The lower recovery rate for grants is attributed in part to factors that
         extend the time frame for receiving recovered grant funds. For example, the OJP has referred approximately $1.2 million to the Treasury for
         collection and is, thus, dependent on the Treasury’s collection processing schedule. In addition, some grantees have been placed on multi-year
         repayment programs based on ability to pay and other factors, which also extends the time frame for receiving recovered grant funds.

                                                                                       Table 1B
                                                                      Cumulative Payment Recapture Audit Reporting

                                                                                                               FYs 2004 through 2011
                                                                                                                                                Percent
                                                                                                              Recovery                       Outstanding
                                                                                                                Rate                          (Percent of
- 21 -




                                                                                                             (Percent of                      Cumulative
                                                                                                             Cumulative                        Improper
                                                                                                              Improper                         Payments
                                                                                                              Payments                       Outstanding
                                                                                                           Recovered out                         out of
                                                                            Cumulative                     of Cumulative                      Cumulative        Cumulative
                                                                             Improper       Cumulative        Improper        Cumulative       Improper        Overpayments
                                               Type of Payment               Payments        Improper         Payments         Improper        Payments         Determined
         DOJ Mission-Aligned           (includes only the types made per   Identified for   Payments        Identified for     Payments      Identified for      Not to be
                  Program                          program)                  Recovery       Recovered         Recovery)       Outstanding      Recovery)        Collectable
         Administrative,             Commercial                                 $667,081        $665,134             99.7%          $1,947             0.3%                $0
         Technology, and Other       Custodial                                         $0             $0                N/A             $0               N/A              N/A
         Litigation                  Commercial                               $2,681,015      $2,591,316             96.7%         $89,699             3.3%                $0
         Law Enforcement             Commercial                              $15,939,236     $14,782,295             92.7%      $1,156,941             7.3%                $0
                                     State and Local Governments                       $0             $0                N/A             $0               N/A              N/A
         State, Local, Tribal, and   Benefits and Assistance                      $10,000        $10,000           100.0%               $0               0%                $0
         Other Assistance            Commercial                                 $356,861        $356,861           100.0%               $0               0%                $0
                                     Grants and Cooperative Agreements        $6,435,379      $3,712,556             57.7%      $2,722,823            42.3%                $0
         Prisons and Detention       Commercial                               $6,740,090      $6,137,312             91.1%        $602,778             8.9%                $0
                                     State and Local Governments                $153,878        $153,878           100.0%               $0               0%                $0
         Total                                                               $32,983,540     $28,409,352             86.1%      $4,574,188            13.9%                $0
          Table 1C provides the results of payment recapture audit activities separately by current year (FY 2011) and previous years (FYs 2004 through
          2010 combined). As shown in the table, for the first two Departmental programs, the amount of commercial improper payments recovered in
          FY 2011 exceeded the amount identified for recovery due to the recovery during FY 2011 of improper payments identified in previous years.

                                                                           Table 1C
                                              Payment Recapture Audit Reporting by Current Year and Previous Years

                                                                                                        Current Year                                      Previous Years
                                                                                                         (FY 2011)                                    (FYs 2004 through 2010)
                                                                                                                                   Percent of
                                                                                                                                 Overpayments
                                                                                                                                   Determined
                                                                                                                                    Not to be
                                                                                                                                   Collectable
                                                                                                                                      out of
                                                                                  Improper                      Overpayments        Improper         Improper
                                                     Type of Payment              Payments        Improper       Determined         Payments         Payments        Improper
                                            (includes only the types made per   Identified for   Payments         Not to be       Identified for   Identified for   Payments
          DOJ Mission-Aligned Program                    program)                 Recovery       Recovered       Collectable        Recovery         Recovery       Recovered
         Administrative, Technology, and   Commercial                                $155,512       $261,351                $0               N/A        $511,569       $403,783
- 22 -




         Other                             Custodial                                        $0             $0               $0               N/A               $0             $0
         Litigation                        Commercial                                $455,062       $943,442                $0               N/A      $2,225,953      $1,647,874
         Law Enforcement                   Commercial                              $3,556,735      $2,668,526               $0               N/A     $12,382,501    $12,113,769
                                           State and Local Governments                      $0             $0               $0               N/A               $0             $0
         State, Local, Tribal, and Other   Benefits and Assistance                    $10,000         $10,000               $0               N/A               $0             $0
         Assistance                        Commercial                                $326,377       $326,377                $0               N/A          $30,484        $30,484
                                           Grants and Cooperative Agreements       $6,435,379      $3,712,556               $0               N/A               $0             $0
         Prisons and Detention             Commercial                              $1,541,380      $1,192,287               $0               N/A      $5,198,710      $4,945,025
                                           State and Local Governments               $153,878       $153,878                $0               N/A               $0             $0
         Total                                                                    $12,634,323      $9,268,417               $0               N/A     $20,349,217    $19,140,935
          If an agency has a payment recapture audit program in place, then the agency is required to establish annual targets to drive their
          annual performance. The targets shall be based on the rate of recovery. Agencies are expected to report current year amounts and
          rates, as well as recovery rate targets for three years.

          Table 2 provides current year (FY 2011) payment recapture audit activities information, cumulative information (FYs 2004 through 2011), and
          recovery rate targets for three years. As shown in the current year section of the table, for the first two Departmental programs, the amount of
          commercial improper payments recovered exceeded the amount identified for recovery due to the recovery during FY 2011 of improper payments
          identified in previous years. As also shown in the table, the Department achieved an overall improper payment recovery rate of 86 percent as of
          the end of FY 2011 – 1 percent better than the OMB target rate of 85 percent that agencies are to strive to achieve by FY 2013. In FY 2012, the
          Department will focus on improving the recovery rate for grants and sustaining the high recovery rates for all other types of payments.

                                                                                             Table 2
                                                                           Improper Payments Recovery Rates and Targets

                                                                                            Current Year                              Cumulative                   Recovery Rate
                                                                                             (FY 2011)                          (FYs 2004 through 2011)               Targets
                                                                             Improper                                    Improper
                                            Type of Payment                  Payments          Improper                  Payments        Improper
- 23 -




          DOJ Mission-Aligned          (includes only the types made per   Identified for     Payments      Recovery   Identified for   Payments      Recovery    FY     FY     FY
                  Program                          program)                  Recovery         Recovered       Rate       Recovery       Recovered       Rate     2012   2013   2014
         Administrative,             Commercial                                $155,512          $261,351     168.1%       $667,081        $665,134      99.7%    99%    99%    99%
         Technology, and Other       Custodial                                         $0              $0        N/A               $0            $0        N/A    85%    85%    85%
         Litigation                  Commercial                                $455,062          $943,442     207.3%      $2,681,015     $2,591,316      96.7%    96%    96%    96%
         Law Enforcement             Commercial                               $3,556,735       $2,668,526      75.0%     $15,939,236 $14,782,295         92.7%    92%    92%    92%
                                     State and Local Governments                       $0              $0        N/A               $0            $0        N/A    85%    85%    85%
         State, Local, Tribal, and   Benefits and Assistance                     $10,000          $10,000     100.0%         $10,000        $10,000     100.0%    99%    99%    99%
         Other Assistance            Commercial                                $326,377          $326,377     100.0%       $356,861        $356,861     100.0%    99%    99%    99%
                                     Grants and Cooperative                   $6,435,379       $3,712,556      57.7%      $6,435,379     $3,712,556      57.7%    65%    85%    85%
                                     Agreements
         Prisons and Detention       Commercial                              $1,541,380        $1,192,287      77.4%     $6,740,090    $6,137,312       91.1%    91%    91%    91%
                                     State and Local Governments              $153,878          $153,878      100.0%      $153,878      $153,878       100.0%    99%    99%    99%
         Total                                                              $12,634,323        $9,268,417      73.4%    $32,983,540   $28,409,352       86.1%
         C. In addition, agencies shall report the following information on their payment recapture audit programs, if applicable:

                  i.   An aging schedule of the amount of overpayments identified through the payment recapture audit program that are
                       outstanding (i.e., overpayments that have been identified but not recovered). Typically, the aging of an overpayment begins
                       at the time the overpayment is detected. Indicate with a note whenever that is not the case.

                       Table 3 provides the aging schedule for the Department’s overpayments that were outstanding (not recovered) as of the end of
                       FY 2011. As shown in the table, of the approximate $1 million of overpayments that was outstanding more than a year, more than
                       $900,000 (or 88 percent) was grants. As mentioned, in FY 2012, the Department will focus on improving the recovery rate for grants.

                                                                                      Table 3
                                                                   Aging of Cumulative Outstanding Overpayments

                                                      Type of Payment
                DOJ Mission-Aligned           (includes only the types made per   Amount Outstanding         Amount Outstanding           Amount Outstanding
                      Program                             program)                  (0 to 6 months)           (6 months to 1 year)           (over 1 year)
          Administrative, Technology, and   Commercial                                              $1,355                         $114                      $478
          Other                             Custodial                                                   $0                           $0                         $0
          Litigation                        Commercial                                            $69,035                       $6,961                     $13,703
          Law Enforcement                   Commercial                                            $15,746                   $1,034,736                   $106,459
- 24 -




                                            State and Local Governments                                 $0                           $0                         $0
          State, Local, Tribal, and Other   Benefits and Assistance                                     $0                           $0                         $0
          Assistance                        Commercial                                                  $0                           $0                         $0
                                            Grants and Cooperative Agreements                    $644,379                   $1,158,132                   $920,312
          Prisons and Detention             Commercial                                            $11,793                     $587,750                      $3,235
                                            State and Local Governments                                 $0                           $0                         $0
          Total                                                                                  $742,308                   $2,787,693                 $1,044,187
                ii.   A summary of how recovered amounts have been disposed of (if any of this information is not available, indicate by either “Note”
                      or “N/A” in the relevant column or cell).

                      Table 4 provides the disposition information for the improper payments the Department recovered in FY 2011. As shown in the table,
                      almost $7.8 million of the approximate $9.3 million recovered (or 84 percent) was returned to the original funds from which the payments
                      were made; another $1.1 million (or 12 percent) was returned to the Treasury.

                                                                                     Table 4
                                                                    Disposition of FY 2011 Recovered Funds

                                                                                                                         Disposition
                                                                 Improper                     Agency                       Financial
          DOJ Mission-              Type of Payment             Payments      Returned to   Expenses to     Payment      Management     Used for    Office of the   Returned
              Aligned       (includes only the types made per   Recovered      Original      Administer    Recapture     Improvement    Original     Inspector       to the
              Program                   program)                in FY 2011       Fund       the Program   Auditor Fees     Activities   Purpose       General       Treasury
         Administrative,   Commercial                              $261,351      $249,991                                                                              $11,360
         Technology,       Custodial                                     $0
         and Other
         Litigation        Commercial                             $943,442      $943,442
- 25 -




         Law               Commercial                            $2,668,526    $2,325,015                                                $343,511
         Enforcement       State and Local Governments                   $0
         State, Local,     Benefits and Assistance                  $10,000       $10,000
         Tribal, and       Commercial                             $326,377      $326,377
         Other             Grants and Cooperative                $3,712,556    $2,605,592                                                                           $1,106,964
         Assistance        Agreements
         Prisons and       Commercial                            $1,192,287    $1,179,731                                                                             $12,556
         Detention         State and Local Governments            $153,878      $153,878
         Total                                                   $9,268,417    $7,794,026            $0            $0              $0    $343,511             $0    $1,130,880
   D. As applicable, agencies should also report on improper payments identified and recovered
      through sources other than payment recapture audits. For example, agencies could report
      on improper payments identified through statistical samples conducted under the IPIA,
      agency post-payment reviews or audits, Office of the Inspector General reviews, Single
      Audit reports, self-reported overpayments, or reports from the public. Specific
      information on additional required reporting for contracts is included in Section 7 of OMB
      memorandum M-11-04, issued in November 2010. Reporting this information is required
      for FY 2011 reporting and beyond. If previous year information is not available, indicate by
      a “Note.”

       The Department’s payment recapture audit program leverages both internal and external efforts to
       identify improper payments. The reporting in Tables 1B through 5 is inclusive of all
       overpayments, regardless of whether they were identified through internal or external sources.
       Table 5 provides information on the overpayments that were identified in FY 2011 by source, i.e.,
       through internal efforts or by auditors, vendors, or payment recapture audit contractors. The table
       also provides FY 2011 recovery information associated with overpayments identified by those
       sources. The table provides information for FY 2011 only, as the Department did not track this
       level of detail in previous years.

                                                Table 5
                                  Sources of Identifying Overpayments

                                                 Improper Payments         Improper Payments
                            Source              Identified in FY 2011     Recovered in FY 2011
                Internal Efforts                             $5,249,056              $4,308,320
                Auditors (e.g., by the OIG or
                audits for OMB Circular A-                  $5,909,309               $3,290,056
                133)
                Vendors                                     $1,475,958               $1,658,681
                Payment Recapture Audit
                                                                    $0                 $11,360
                Contractors
                Total                                     $12,634,323                $9,268,417


Item VI. Accountability. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the steps the agency has taken and plans to take
(including timeline) to ensure that agency managers, accountable officers (including the agency
head), programs, and States and localities (where appropriate) are held accountable for reducing
and recovering improper payments. Specifically, they should be held accountable for meeting
applicable improper payments reduction targets and establishing and maintaining sufficient
internal controls (including an appropriate control environment) that effectively prevents improper
payments from being made and promptly detects and recovers any improper payments that are
made.

Not applicable. Based on the results of the FY 2011 Department-wide risk assessment, there were no
programs susceptible to significant improper payments.

Item VII. Agency Information Systems and Other Infrastructure.

   A. Describe whether the agency has the internal controls, human capital, and information
      systems and other infrastructure it needs to reduce improper payments to the levels the
      agency has targeted.




                                                  - 26 -
        The results of the FY 2011 Department-wide risk assessment demonstrated that, overall, the
        Department has sufficient internal controls over disbursement activities to prevent improper
        payments. The assessment identified no programs susceptible to significant improper payments.

        Department-wide actions to reduce improper payments are accomplished through an aggressive
        strategy of re-engineering and standardizing business processes, concurrent with the
        Department’s implementation of an integrated financial management system, which is underway.
        As of the end of FY 2011, all Departmental components reported that they had sufficient internal
        controls, human capital, and the information systems and other infrastructure needed to reduce
        improper payments to targeted levels.

        In addition to the Department’s actions to improve agency information systems and
        infrastructure, individual components have taken actions to incorporate additional controls into
        their financial systems to reduce improper payments. For example, in FY 2011, the Federal
        Prison Industries (FPI) purchased a Document Management Service for processing accounts
        payable vendor invoices, which the FPI plans to implement the first quarter of FY 2012. The
        increased capability will provide end-to-end automation that integrates document automation,
        reconciliation, voucher processing, workflow for approvals, and detailed reporting information.

    B. If the agency does not have such internal controls, human capital, and information
       systems and other infrastructure, describe the resources the agency requested in its most
       recent budget submission to Congress to establish and maintain the necessary internal
       controls, human capital, and information systems and other infrastructure.

        Not applicable. The continued implementation of the Department’s integrated financial
        management system will complement the Department’s current infrastructure and capabilities to
        reduce improper payments.

Item VIII. Barriers. Describe any statutory or regulatory barriers that may limit the agency’s
corrective actions in reducing improper payments and actions taken by the agency to mitigate the
barriers’ effects.

The Department has not identified any statutory or regulatory barriers that limit its corrective actions in
reducing improper payments.

Item IX. Additional Comments. Discuss any additional comments, if any, on overall agency
efforts, specific programs, best practices, or common challenges identified as a result of IPERA
implementation.

The Department recognizes the importance of maintaining adequate internal controls to ensure proper
payments and is committed to the continuous improvement of the overall disbursement management
process. The Department’s use in FY 2011 of a top-down approach for implementing the expanded
requirements of the IPERA promoted consistency across the Department, both with regard to conducting
the required risk assessment and for tracking and reporting payment recapture audit activities. In
FY 2012, the Department will continue its efforts to further reduce improper payments, as well as
improve the recovery rate for grants – the only type of payment for which the Department’s recovery rate
as of the end of FY 2011 was below 90 percent.




                                                  - 27 -
